TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Criminal Investigation Can Take
                           Steps to Strengthen Oversight of
                              Its Undercover Operations



                                         February 3, 2012

                              Reference Number: 2012-30-014




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(d) = Law Enforcement Technique
 2(e) = Law Enforcement Procedure
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


CRIMINAL INVESTIGATION CAN TAKE                      thorough in some aspects than other Federal
STEPS TO STRENGTHEN OVERSIGHT                        agencies.
OF ITS UNDERCOVER OPERATIONS                         Although CI took steps to strengthen controls
                                                     over its undercover operations in response to
                                                     our Fiscal Year 2002 review, TIGTA identified
Highlights                                           repeat findings and determined that internal
                                                     control weaknesses continue to exist because
Final Report issued on February 3, 2012              corrective actions were not implemented
                                                     sufficiently. In addition, some undercover
Highlights of Reference Number: 2012-30-014          expenditures that could be considered as
to the Internal Revenue Service Chief, Criminal      questionable did not have documentation
Investigation.                                       indicating the expenditures were preapproved.
IMPACT ON TAXPAYERS                                  Although CI’s undercover agents expressed
                                                     their training was sufficient and safety was
Criminal Investigation (CI) uses undercover          emphasized, TIGTA believes that additional
operations as an essential technique in the          steps could be taken to protect the identity of
detection and investigation of criminal activity     undercover agents. TIGTA also determined that
involving tax and money laundering offenses.         financial reviews of undercover operations that
Our review determined that weaknesses in the         earned income were not conducted timely.
controls over undercover operations continue to
exist. Given the risks associated with               WHAT TIGTA RECOMMENDED
undercover operations, stronger oversight helps
ensure that undercover operations are properly       TIGTA recommended that the Chief, CI:
managed and meet operational objectives, and         1) modify existing guidance to include specific
that Federal tax dollars are used in the most        criteria regarding when operational and financial
efficient manner to ensure the public’s              reviews are required, 2) develop a process to
confidence in CI’s investigative techniques.         alert CI officials that operational and financial
                                                     reviews are due, 3) strengthen controls to
WHY TIGTA DID THE AUDIT                              ensure that expenditures are properly and timely
                                                     approved and documented, 4) strengthen
This audit was part of TIGTA’s Fiscal Year 2011      procedures to protect the identity of undercover
Annual Audit Plan and addresses the major            agents, and 5) ensure that the financial reviews
management challenge of Tax Compliance               of undercover operations with churning authority
Initiatives. This review is a follow-up to TIGTA’s   are requested within 90 calendar days after the
Fiscal Years 2001 and 2002 reviews of CI             undercover operation portion of the investigation
undercover operations. The overall objective of      is concluded.
this review was to determine whether CI has
effective policies and procedures to ensure          IRS management agreed with our
undercover operations are properly monitored,        recommendations and plan to take corrective
expenses are appropriate, and any income             actions to address the recommendations.
earned is properly controlled. In addition, TIGTA
evaluated the practices used to protect the
safety of special agents working on undercover
operations.
WHAT TIGTA FOUND
TIGTA found that other Federal law
enforcement agencies respect CI’s
undercover program because of the financial
expertise CI special agents bring to a joint
investigation. TIGTA also found that CI’s
undercover practices appear to be more
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           February 3, 2012


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Criminal Investigation Can Take Steps to
                             Strengthen Oversight of Its Undercover Operations
                             (Audit #201030037)

 This report presents the results of our review to determine whether Criminal Investigation has
 effective policies and procedures to ensure undercover operations are properly monitored,
 expenses are appropriate, and any income earned is properly controlled. In addition, we
 evaluated the practices used to protect the safety of special agents working on undercover
 operations. This audit was included in our Fiscal Year 2011 Annual Audit Plan and addresses
 the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                    Criminal Investigation Can Take Steps to Strengthen Oversight of
                                        Its Undercover Operations




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Criminal Investigation’s Policies and Practices Are Similar to Other
          Federal Law Enforcement Agencies ............................................................. Page 5
          Corrective Actions to Address Previously Identified Internal Control
          Weaknesses Were Not Sufficient.................................................................. Page 6
                    Recommendations 1 through 3:......................................... Page 9

          Undercover Training Has Improved, but Opportunities Exist to Reduce
          the Risk of Undercover Agents Being Identified .......................................... Page 10
                    Recommendation 4:........................................................ Page 12

          Financial Data From Undercover Operations That Earned Income
          Were Not Timely Provided for Review ........................................................ Page 12
                    Recommendation 5:........................................................ Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Glossary of Terms ................................................................ Page 18
          Appendix V – Management’s Response to the Draft Report ....................... Page 20
         Criminal Investigation Can Take Steps to Strengthen Oversight of
                             Its Undercover Operations




                          Abbreviations

CI                  Criminal Investigation
FY                  Fiscal Year
I.R.C.              Internal Revenue Code
IRM                 Internal Revenue Manual
IRS                 Internal Revenue Service
LEM                 Law Enforcement Manual
SB/SE               Small Business/Self-Employed
TIGTA               Treasury Inspector General for Tax Administration
                    Criminal Investigation Can Take Steps to Strengthen Oversight of
                                        Its Undercover Operations




                                               Background

Criminal Investigation’s (CI) primary mission is to serve the American public by investigating
potential criminal violations of the Internal Revenue Code (I.R.C.)1 and related financial crimes
in a manner that fosters confidence in the tax system and compliance with the law. To
accomplish its mission, CI uses undercover operations as an essential technique in the detection
and investigation of criminal activity involving tax and money laundering offenses. An
undercover operation is a law enforcement technique whereby a special agent, acting under an
assumed identity, infiltrates a suspected criminal organization without the knowledge of the
perpetrators for the purpose of acquiring evidence of criminal activity. CI has special agents
who are trained in undercover techniques and are commonly referred to as undercover agents. In
addition to the undercover agent(s) assigned to an undercover operation, other CI personnel,
i.e., cover agent, case agent, Supervisory Special Agent, and technical special agents, referred to
as the undercover team, normally participate in the undercover operation.
CI’s Office of Special Investigative Techniques has oversight responsibility for the approval and
execution of all undercover operations. This responsibility includes recommending corrective
actions to CI officials to address areas for improvement. Undercover operations are also subject
to review during Review and Program Evaluations of each field office.
During Fiscal Years (FY) 2008 through 2010, CI closed ***2(f)*** undercover operations that
expended ***2(f)*** in confidential expenditures. The majority of these undercover operations
were classified as grand jury. An undercover operation categorized as grand jury has had
evidence brought before a Federal grand jury to seek an indictment against the target(s) of the
investigation. According to Rule 6(e) of the Federal Rules of Criminal Procedure, only those
persons authorized have the ability to review evidence presented before the grand jury.2 The
Assistant United States Attorney’s Office makes the final decision regarding individuals who are
authorized access to grand jury information. In addition, authorized persons are prohibited from
disclosing, to those that do not have authorized access, any evidence presented to the grand jury.
Figure 1 provides information for the ***2(f)*** undercover operations by classification, i.e.,
grand jury or non-grand jury, and the amount of confidential expenditures.




1
    See Appendix IV for glossary of terms.
2
    Federal Rules of Criminal Procedures, Rule 6(e).
                                                                                            Page 1
                     Criminal Investigation Can Take Steps to Strengthen Oversight of
                                         Its Undercover Operations



        Figure 1: Closed FYs 2008 – 2010 Undercover Operations and Expenditures

                     FY 2008                     FY 2009                     FY 2010                     Total
  Type        #        Expenditures       #       Expenditures        #       Expenditures       #       Expenditures
Grand       *2(f)*             *2(f)*   *2(f)*             *2(f)*   *2(f)*             *2(f)*
                                                                                                *2(f)*           *2(f)*
Jury
Non-        *2(f)*             *2(f)*   *2(f)*             *2(f)*   *2(f)*             *2(f)*
Grand                                                                                           *2(f)*           *2(f)*
Jury
 Total*     *2(f)*             *2(f)*   *2(f)*             *2(f)*   *2(f)*             *2(f)*   *2(f)*           *2(f)*

  Source: CI Headquarters files and the Criminal Investigation Management Information System.

  Since Treasury Inspector General for Tax Administration (TIGTA) auditors are not authorized
  access to grand jury case information, we were limited to reviewing only non-grand jury
  undercover operations. In addition, we did not have access to the case files for **2(f)** of the
  **2(f)** non-grand jury undercover operations because the related investigations were ongoing.
  Ultimately, of the **2(f)** closed undercover operations, **2(f)** with confidential
  expenditures totaling ***2(f)*** were made available for our review. However, regardless of
  whether the classification of the undercover operation is grand jury or non-grand jury, CI
  procedures for conducting the undercover operation are the same. Because the procedures are
  the same, we believe our review of the **2(f)** non-grand jury undercover operations allows us
  to make an assessment of CI’s undercover operations.
  For the **2(f)** non-grand jury undercover operation administrative case files and the **2(f)**
  cover agent case files we reviewed, the names of special agents and undercover agents were
  redacted. CI officials advised that agents’ true identity and undercover identity were redacted for
  safety and security concerns. The redactions of special agent and undercover agent names
  limited our ability to evaluate CI’s controls and oversight of undercover operations. The
  redactions also made it impossible to conduct our planned review of documentation to determine
  if special agents received training prior to being assigned to an undercover operation. Despite
  the redaction of special agent names, we were able to review information in the undercover
  operation case files to determine if special agents followed procedures to protect undercover
  identities. In addition, we reviewed training agenda and conducted anonymous interviews with
  undercover agents to discuss the adequacy of their training.
  This review is a follow-up to two prior TIGTA reports. In our September 2001 report, we
  determined that undercover operations which earned income, i.e., churning, were not consistently
  treating earned income to offset expenditures of the undercover operation.3 We recommended


  3
   TIGTA, Ref. No. 2001-10-174, Financial Review of Criminal Investigation’s Group 1 Undercover Operations
  (Sept. 2001).
                                                                                                            Page 2
                Criminal Investigation Can Take Steps to Strengthen Oversight of
                                    Its Undercover Operations



that the Chief, CI, issue guidance regarding the handling of income and expenses for churning
purposes and reporting expenditures of applicable operations to Congress. In addition, CI was to
ensure that guidance issued to account for funds used in undercover operations promotes
accuracy, uniformity, and consistency in accounting for undercover operations. The Chief, CI
agreed to implement these recommendations.
As part of our efforts to evaluate the effectiveness of corrective actions taken by CI in response
to recommendations made in our September 2001 report, we attempted to review the **2(f)**
undercover operations that involved churning that were closed during FYs 2008 through 2010.
Specifically, we planned to determine if CI adhered to congressional guidelines regarding the
accounting of income and expenses. However, for ***2(f)*** of the ***2(f)*** undercover
operations,4 the undercover and churning portions of the investigations were concluded prior to
CI taking corrective actions in response to our report. Therefore, reviewing these undercover
operations would not provide an assessment of the effectiveness of the corrective actions taken.
Further, we did not review the remaining ***2(f)*** undercover operations because results of so
few undercover operations would not provide sufficient assurance to CI that the corrective
actions were successfully implemented. As an alternative method to accomplish this test, we
requested access to current investigations where the undercover operation portion of the
investigation was concluded. We were advised that information from any ongoing investigation
could not be provided because it could compromise the investigation. As a result, we could not
determine if corrective actions taken to address previously identified internal control weaknesses
over undercover operations with churning were effective. However, we were able to evaluate if
the reviews of expenditures of churning operations were timely reported to Congress.
In our September 2002 report, we identified numerous instances where the identities of
undercover agents’ undercover entities were in jeopardy of being breached.5 We also determined
that CI management needed to focus more attention on some categories of expenses because
these expenses were unauthorized, unsupported, or unrelated to ongoing investigations. In
addition, we found that periodic operational and financial reviews were not always performed as
frequently as required. We made seven recommendations and the Chief, CI, responded that
corrective actions would be taken to address the weaknesses found. These corrective actions
included conducting training that emphasized security issues and implementing new procedures
that emphasized the requirement to perform timely financial and operational reviews to identify
potential security and identity breaches.
Our audit work was limited to investigations and undercover operations that were neither
presented before the grand jury nor had grand jury implications. This review was performed at
CI’s National Headquarters Office in Washington, D.C., and CI field offices in ***2(f)****,


4
 *******************************1*****************************************************.
5
 TIGTA, Ref. No. 2002-10-196, Criminal Investigation’s Use of Confidential Funds for Undercover Operations Is
Appropriate; However, Certain Aspects of Undercover Operations Need Improvement (Sept. 2002).
                                                                                                      Page 3
              Criminal Investigation Can Take Steps to Strengthen Oversight of
                                  Its Undercover Operations



******************************2(f)**********************************. We also
contacted the Small Business/Self-Employed (SB/SE) Division personnel and discussed its
process for auditing undercover operations that had churning income. Additionally, we met with
four Federal law enforcement agency officials located in Washington, D.C., to discuss
undercover operation best practices.
With exception to the scope limitations noted above, we conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
               Criminal Investigation Can Take Steps to Strengthen Oversight of
                                   Its Undercover Operations




                                 Results of Review

Criminal Investigation’s Policies and Practices Are Similar to Other
Federal Law Enforcement Agencies
We met with officials from CI and four other Federal law enforcement agencies that carry out
undercover operations to gain perspectives regarding the administration and oversight of
undercover operations. Our meetings included discussions regarding undercover agent training
and safety and security procedures. Representatives from the other Federal agencies expressed
that they value CI’s assistance because of the financial expertise CI special agents bring to an
investigation. One Federal agency official indicated they conduct joint investigations with CI
frequently and they have found CI to be an invaluable resource.
With the exception of one Federal agency that rarely conducts undercover operations, we found
that the other three Federal law enforcement agencies’ undercover operation policies and
procedures have some similarities to CI’s; however, CI’s practices appear to be more thorough in
some aspects. For example:
   •   One agency allows agents who have not received basic undercover training to participate
       in a minor role during an undercover operation. 
   •   Another agency does not require periodic mandatory operational reviews unless triggered
       by circumstances of the operation.
   •   None of the agencies require independent headquarters oversight of every undercover
       operation.
We attribute these differences to the inherent differences in the types of crimes investigated and
the overall mission of CI and the other Federal agencies. Figure 2 provides a comparison of
oversight and training requirements for CI undercover operations and the three Federal agencies
that conduct a significant number of undercover operations.




                                                                                            Page 5
                Criminal Investigation Can Take Steps to Strengthen Oversight of
                                    Its Undercover Operations



         Figure 2: Comparison of Oversight and Training Requirements for
         Undercover Operations Among Federal Law Enforcement Agencies
                                                                      Agency (x = agency has this policy)
                                                             Agency      Agency      Agency
                                                               1            2          3           CI
 Agency requires a periodic operational review of
 undercover operations within a standardized time               X           X                       X
 period.
 Undercover agents receive basic undercover training
 before participating in a major role during an                X            X           X          X
 undercover operation.
 Agency offers multiple levels of undercover training or
                                                               X            X           X           X
 specialization courses.
 Headquarters oversight on every undercover
                                                                                                   X
 operation.
Source: Discussions with CI and three other Federal law enforcement agencies.

Corrective Actions to Address Previously Identified Internal Control
Weaknesses Were Not Sufficient
Due to the sensitive nature of criminal investigations, CI has detailed guidelines in the Internal
Revenue Manual (IRM) governing how undercover operations should be approved, conducted,
and monitored. The request to conduct an undercover operation is made by a field office’s
Special Agent in Charge and is to include sufficient information for the approving official to
evaluate the risks, potential benefits, and resources needed. A preoperational meeting is also
required before any undercover activity on the investigation takes place. Further, any significant
deviations from the objective or proposed plan of action may not be made without the approving
official’s consent.
We reviewed the administrative case files for the ***2(f)***non-grand jury undercover
operations that were closed during FYs 2008 through 2010 to determine if CI followed
established Internal Revenue Service (IRS) procedures and internal controls to approve, conduct,
and monitor undercover operations. We determined that requests for undercover operations were
approved, preoperational meetings were conducted, and any extensions of time and deviations
from original investigative plans were approved and documented as required. However, during
our current review, we determined some of the previously reported deficiencies we identified in
our FY 2002 report continue to exist. Specifically, operational reviews and financial reviews
were not being timely conducted, and some expenditures that could be considered as
questionable were not documented as being preapproved. Given the risks associated with
undercover operations, stronger oversight would provide greater assurance that undercover
operations were properly managed and the objectives were met. This includes ensuring that

                                                                                                        Page 6
                 Criminal Investigation Can Take Steps to Strengthen Oversight of
                                     Its Undercover Operations



expenditures were reasonable, proper accounting procedures were followed, and Federal tax
dollars were used in the most efficient manner to ensure the public’s confidence in CI’s
investigative techniques.

Periodic operational and financial reviews were not always timely performed
In our FY 2002 review, we recommended CI officials reemphasize procedures to ensure that
operational and financial reviews are timely performed. In response to our recommendation, CI
officials stated they had implemented new procedures emphasizing the requirement to perform
timely operational and financial reviews. The IRM requires that operational and financial
reviews of all ongoing undercover operations should be conducted every 90 calendar days, at a
minimum, and a final financial review at the conclusion of the undercover operation (referred to
as the closing financial review). If either an operational or financial review is not conducted
when required, a brief memorandum stating why should be substituted in the undercover
operation case file.
The purpose of the operational and financial reviews is to ensure: 1) the undercover operation is
being conducted within the authority of the plan, 2) managerial involvement is adequate, 3) the
expenses are reasonable and necessary, and 4) proper accounting procedures are being followed.
The Undercover Program Manager, assigned by the Office of Special Investigative Techniques
to oversee each undercover operation, is responsible for determining when the review is required
and for conducting the reviews. Our review of the ***2(f)*** administrative case files
identified:
    •   ***2(f)*** (47 percent) of the required ***2(f)*** periodic operational reviews were
        conducted or an explanatory memorandum was placed in the file stating why it was not
        conducted.6
    •   ***2(f)*** (42 percent) of the required ***2(f)*** periodic financial reviews and
        ***2(f)*** (86 percent) of the ***2(f)*** closing financial reviews were conducted.7
The IRM does not define the circumstances when an operational review is not required, which
could lead to varying interpretations of whether, or when, a review is needed. Similarly, the
absence of financial reviews may have been due to CI field personnel interpretations regarding
when reviews are required because the Law Enforcement Manual (LEM) for Undercover
Operations does not specify when the 90-calendar-day time period is to start. When either type

6
  ***2(f)*** undercover operations were closed within 90 calendar days and were not required to have an
operational review. To determine the number of required operational reviews for the ***2(f)*** remaining
undercover operations, we used the date of the preoperational meeting through the date the undercover operation
was closed to calculate the number of 90-calendar-day periods for each undercover operation.
7
  To determine the number of required financial reviews, we used the date of the preoperational meeting through the
date the undercover operation was closed to calculate the number of 90-calendar-day periods for each undercover
operation.
                                                                                                           Page 7
               Criminal Investigation Can Take Steps to Strengthen Oversight of
                                   Its Undercover Operations



of review is not timely completed, it is difficult for CI to have assurance that undercover
operations are being properly managed and meeting operational objectives.

Not all confidential expenditures were properly preauthorized
In our FY 2002 review, we recommended that CI officials provide more emphasis on reviewing
expenses related to the undercover operation for proper authorization and documentation. In
response to our recommendation, CI officials stated they issued a reference guide governing the
documentation necessary to obtain, review, and approve confidential expenditures. CI officials
also planned to use operational reviews to ensure the appropriate authorization and
documentation of expenditures were in the undercover operation case files.
CI approves and establishes funding to support undercover operations through investigative
imprest funds for such things as purchasing necessary and approved items and services for
completing the undercover portion of the investigation. Each disbursement of the approved
funding is to be properly authorized and documented. Any unused funds are required to be
returned to the imprest fund.
To evaluate the effectiveness of field office oversight procedures to account for and control
expenditures, we reviewed the cover agent case files for ***2(f)*** of the ***2(f)***
undercover operations to determine whether the approximately ***2(f)*** in confidential
expenditures were authorized, approved, and documented. We found that most confidential
expenditures appeared to have been appropriate and were well documented. However, the
following examples identified where additional oversight may have been needed to reduce the
risk of expenditures being unauthorized or inappropriate due to the lack of documentation in the
cover agent case files and to ensure cover agents adhere to procedures. Specifically,
   •   ********************************1****************2(f)********************
       ********************************1****************2(f)*****************
       ********************************1****************2(f)********************
       ********************************1****************2(f)****************
       ********************************1****************2(f)***********
   •   ********************************1****************2(f)******************
       ********************************1****************2(f)******************
       ********************************1****************2(f)*******************
       *************************1************2(e)****************.
   •   ***************************1****************2(f)************************
       ***************************1****************2(f)*************************
       ***************************1****************2(f)************************
       ***************************1****************2(f)*****************.



                                                                                              Page 8
              Criminal Investigation Can Take Steps to Strengthen Oversight of
                                  Its Undercover Operations



   •   *******************************1******************2(f)******************
       *******************************1******************2(f)******************
       *******************************1******************2(f)****************
       *******************************1******************2(f)************
       *******************************1******************2(f)****************
       *******************************1******************2(f)*******************
       *******************************1******************2(f)************
When confidential expenditures are not properly preauthorized and reviewed, the risk of
misappropriation increases and can result in funds not being available for other authorized
Government use. For example, if CI had conducted a timely financial review as required, the
$20,000 check that had not been negotiated would have been discovered and would have been
timely returned. Timely return of unused funds ensures accountability and availability for other
authorized Federal Government use.

Recommendations
To address previously identified control weaknesses, the Chief, CI, should:
Recommendation 1: Modify existing IRM and LEM procedures to include specific criteria
stating when operational and financial reviews are not required to be performed. Also, define a
specific starting point for the 90-calendar-day period when operational and financial reviews are
first required to be conducted, e.g., 90 calendar days after the preoperational meeting.
       Management’s Response: IRS management agreed with this recommendation. The
       Office of Special Investigative Techniques will modify existing IRM 9.4.8.11 to include
       a specific starting date for the 90-calendar-day period when operational and financial
       reviews are first required to be conducted.
Recommendation 2: Develop a monitoring process to ensure the Undercover Program
Manager, cover agent, and Supervisory Special Agent are alerted and timely complete all
required operational and financial reviews.
       Management’s Response: IRS management agreed with this recommendation. The
       Office of Special Investigative Techniques will develop an internal monitoring process to
       ensure the Undercover Program Manager, cover agent, and Supervisory Special Agent
       are alerted and timely complete all required operational and financial reviews. This
       monitoring process will utilize a new Special Investigative Techniques-CI Management
       Information System report which will indicate the due dates of reports and will be used
       by Headquarters personnel to alert the appropriate field personnel to timely complete all
       required operational and financial reviews.
Recommendation 3: Strengthen controls to ensure all undercover expenditures are properly
and timely approved and documented. This includes ensuring that the purchase of personal

                                                                                           Page 9
              Criminal Investigation Can Take Steps to Strengthen Oversight of
                                  Its Undercover Operations



items are properly accounted for and controlled in CI inventory and that any extraordinary travel
expenses are preapproved and documented.
       Management’s Response: IRS management agreed with this recommendation;
       however, they believe the controls are already in place and included in their established
       Pre-Operational Meeting Checklist and IRM 9.4.8 and 9.11.1. Nevertheless, the Director,
       Operations, Policy and Support, agreed to issue a memorandum to all Special Agents in
       Charge and Undercover Program Managers reemphasizing the importance of following
       the established procedures and checklists.

Undercover Training Has Improved, but Opportunities Exist to Reduce
the Risk of Undercover Agents Being Identified
CI procedures emphasize that the safety and security of undercover identities is the most
important component in managing and executing CI undercover operations. It is imperative that,
when conducting undercover operations, there be no link between the undercover and true
identities of the undercover agent. In our FY 2002 review, we reported numerous instances
where the identities of undercover agents were in jeopardy of being breached. Many of these
security lapses resulted when the true identities were shown on travel documents and financial
records. In response to our recommendation to increase awareness about security issues and
potential identity breaches, CI management stated they would conduct training to emphasize
security issues and conduct operational reviews to monitor and identify potential security
breaches.

CI’s training incorporated safety and security of undercover agents
CI’s procedures emphasize that standardized training will be provided for all undercover agents.
CI officials stated they were extremely proud of CI’s undercover training program and believe
each undercover agent has had sufficient training and is adequately prepared for each
assignment. For example, CI officials stated new training has been developed that incorporates
and requires attendees to assume the role of their undercover identity during the training class.
This change is considered a proactive step to assist undercover agents in adapting to being
undercover and to develop a level of comfort using their fictitious name and background story to
support their undercover persona.
Part of the training is also dedicated ******************2(d)*******************
*******************************2(d)************************************. We
reviewed an agenda from the most recent training class for undercover agents and confirmed the
topics addressed included: *************************2(d)*********************
*****************************************2(d)*********************************
*****************************************2(d)******************************
************************************2(d)******************. We were unable to

                                                                                         Page 10
               Criminal Investigation Can Take Steps to Strengthen Oversight of
                                   Its Undercover Operations



determine if undercover agents received training prior to their assignments because neither the
names of special agents nor training records were provided. However, CI officials assured us
that all undercover agents had received the required training.
We also conducted telephone interviews with four anonymous undercover agents about their
training. All four agents stated the training they received adequately prepared them for their
undercover roles. In addition, each individual stated safety and security, and the protection of
identities, were stressed throughout the training. However, three of the four agents believed
periodic refresher training would be beneficial. Also, one of the agents indicated that additional
training on the financial aspects of the undercover operation would be helpful.

Steps can be taken to protect the identity of undercover agents
We were unable to determine if the security lapses identified in our FY 2002 review were
recurring due to the redaction of information in undercover operation case files provided to us
for review. For example, in some instances, CI redacted all names (including those that did not
have undercover identities), phone numbers, and addresses contained in the file. As a result, we
could not adequately evaluate the effectiveness of corrective actions, established procedures, and
internal controls designed to protect the identity of special agents.
However, observations during this review identified that the risk of an undercover agent’s name
being compromised continues to exist because undercover and case agents did not always adhere
to security protocol. During our review of undercover operation case files and discussions with
special agents, we identified the following areas where CI can take steps and strengthen existing
internal controls to ensure the identities of undercover agents are not compromised.
For ***2(f)***(14 percent) of the ***2(f)*** undercover operations reviewed, existing
procedures designed to ensure the safety and security of undercover agents were not followed.
For example, we believe these instances, from the ***2(f)*** undercover operations described
below, are situations where undercover agents put themselves and the undercover operation at
risk:
   •   ***************************1*******************2(f)**********************
       ***************************1*******************2(f)*******************
       ***************************1*******************2(f)********************
       ***************************1*******************2(f)*******************
       ***************************1*******************2(f)*****************
       ***************************1*******************2(f)**********************
       ****************1************2(f)********
   •   *************************1******************2(f)***********************
       *************************1******************2(f)*************************
       *************************1******************2(f)*************************
       *************************1******************2(f)********************

                                                                                           Page 11
               Criminal Investigation Can Take Steps to Strengthen Oversight of
                                   Its Undercover Operations



       ****************************1******************2(f)*******************
       ****************************1******************2(f)***************
       **************1***************2(f)**********************. CI officials added
       that the chance of a link between an undercover agent and CI employees being detected
       in situations such as these examples is unlikely. *************1*********2(f)***
       ***********1***********2(f)**************************. ****1********
       ***************************1****************2(e)************************
       ***************************1****************2(e)**********************
       *********************1*******************2(e)**********************.

We recognize that there may be factors that necessitate deviations from established procedures
and protocol. However, since the deviations above relate to risks that could compromise the
identity of the undercover agents and the undercover operation, we believe approvals for the
deviation should have been documented. Although our review of undercover operation case files
did not identify any actual security breaches resulting from the instances noted above, when
security is not maintained at the highest possible level, the risk of detection is increased and
identities can be compromised.

Recommendation
Recommendation 4: To address previously identified control weaknesses, the Chief, CI,
should emphasize procedures to ensure special agents take the necessary steps to reduce the risk
of their undercover identity being breached. This includes ensuring deviations from LEM
procedures are approved and documented in undercover operation case files.
       Management’s Response: IRS management agreed with this recommendation. An
       appropriate memorandum will be prepared for the field clarifying and emphasizing IRM
       and LEM requirements. Additionally, the Pre-Operational Meeting Checklist will be
       changed and clarified to emphasize procedures to ensure special agents take the necessary
       steps to reduce the risk of their undercover identity being breached.

Financial Data From Undercover Operations That Earned Income
Were Not Timely Provided for Review
The IRS’s SB/SE Division is responsible for conducting financial reviews of undercover
operations that were authorized to churn funds. The purpose of these reviews is to provide
Congress and CI officials with assurance that the financial records fairly represent the results of
the operations. Specifically, upon the closing of an undercover operation that involved churning,
the I.R.C. requires the IRS to conduct a detailed financial review and submit the results in
writing to the Secretary of the Treasury, and report to Congress, no later than 180 calendar days
after the undercover operation is closed. According to the I.R.C., the term “closed” means the

                                                                                           Page 12
              Criminal Investigation Can Take Steps to Strengthen Oversight of
                                  Its Undercover Operations



date on which the latter of the following occurs: all criminal proceedings are concluded or all
covert activities are concluded. However, during Calendar Year 2006, CI instituted procedures
that acknowledged the related criminal proceedings might take several years to conclude. The
procedures recognized the need for the financial review to be conducted soon after the
undercover portion of the investigation was completed.
During FY 2010, CI requested that the SB/SE Division perform financial reviews of
***2(f)*** undercover operations that were authorized to churn funds. The ***2(f)***reviews
were completed in an average of 988 calendar days (ranging from 768 to 1,247 calendar days)
after the undercover portion of the investigation was completed. Based on discussions with CI
and SB/SE Division personnel, we determined the extended length of time to complete these
reviews occurred because CI did not timely refer these undercover operations to SB/SE Division
for review.
According to the procedures established in Calendar Year 2006, undercover operations are to be
referred for review within 90 calendar days after the conclusion of undercover activity. We
believe the effectiveness of these reviews is greatly diminished when not conducted in closer
proximity to the events of the undercover operation and, therefore, the reviews may not provide
CI, the Secretary of the Treasury, or Congress with an accurate determination on whether
undercover operations were conducted in adherence with congressional guidelines.

Recommendation
Recommendation 5: The Chief, CI, should strengthen controls to ensure the financial review
of undercover operations with churning authority are requested within 90 calendar days after the
undercover operation portion of the investigation is concluded.
       Management’s Response: IRS management agreed with this recommendation. The
       Office of Special Investigative Techniques will develop an internal monitoring process to
       ensure the financial review of undercover operations with churning authority is requested
       within 90 calendar days after the undercover operation portion of the investigation is
       concluded. Headquarters CI personnel will alert the appropriate field personnel to timely
       complete the financial review of undercover operations with churning authority.




                                                                                         Page 13
                Criminal Investigation Can Take Steps to Strengthen Oversight of
                                    Its Undercover Operations



                                                                                              Appendix I

        Detailed Objectives, Scope, and Methodology

This review was a follow-up to our FYs 2001 and 2002 reviews of CI’s undercover operations.1
The overall objective was to determine whether CI has effective policies and procedures to
ensure undercover operations are properly monitored, expenses are appropriate, and any income
earned is properly controlled. In addition, we evaluated the practices used to protect the safety of
special agents working on undercover operations. To accomplish our objectives, we:
I.      Determined whether corrective actions to address recommendations made in prior
        reports2 were implemented and are effective.
II.     Determined if CI established effective internal controls to approve, monitor, and track
        undercover operations.
        A. Reviewed IRM and LEM guidance and identified applicable procedures regarding the
           approval, monitoring, and closing of undercover operations.
        B. Determined if CI provided effective oversight of undercover operations by reviewing
           the population of ***2(f)*** non-grand jury undercover operations out of the total
           ***2(f)*** grand jury and non-grand jury undercover operations that were closed
           during FYs 2008 through 2010. We reviewed the undercover operation
           administrative case files to determine if those contained evidence of proper approval,
           preoperational meetings, operational and financial reviews, and closing reports.
III.    Evaluated the effectiveness of field office procedures for conducting undercover
        operations, and accounting for and controlling confidential expenditures.
        A. Judgmentally selected the following four of the 26 field offices with closed non-grand
           jury undercover operations during FYs 2008 through 2010 for site visits:
           ******************2(f)******************************************
           ***2(f)***. Selection factors were 1) location of the field office, 2) amounts of
           approved and actual expenditures, 3) amount of recoverable funds, 4) undercover
           operation category, and 5) length of time the undercover operation was open. At
           these **2(f)** field offices, **2(f)** of the **2(f)** non-grand jury undercover



1
 See Appendix IV for glossary of terms.
2
 TIGTA, Ref. No. 2001-10-174, Financial Review of Criminal Investigation’s Group 1 Undercover Operations
(Sept. 2001) and TIGTA, Ref. No. 2002-10-196, Criminal Investigation’s Use of Confidential Funds for Undercover
Operations Is Appropriate; However, Certain Aspects of Undercover Operations Need Improvement (Sept. 2002).
                                                                                                      Page 14
               Criminal Investigation Can Take Steps to Strengthen Oversight of
                                   Its Undercover Operations



           operations were conducted. We used judgmental sampling because we did not intend
           to project any of our results.
       B. At the **2(f)** field offices, reviewed the cover agent case files for **2(f)** of the
          **2(f)** non-grand jury undercover operations to evaluate the appropriateness of
          confidential expenditures and determine if any capital item expenditures were
          properly controlled in inventory.
       C. Interviewed eight cover agents, four anonymous undercover agents, and one
          Undercover Program Manager to discuss their roles and responsibilities for ensuring
          undercover operations were conducted in accordance with CI’s guidelines and
          procedures.
       D. Determined if CI field offices adhered to IRM guidelines for closing undercover
          operations.
IV.    Discussed with SB/SE Division officials the process for conducting financial reviews of
       undercover operations that involved churning. This included determining the length of
       time it took to conduct the ***2(f)** financial reviews during FY 2010.
V.     Evaluated CI’s procedures to protect the safety of undercover agents or undercover
       entities.
       A. Determined what actions the Office of Special Investigative Techniques had taken to
          increase undercover agent awareness regarding security, safety, and steps to reduce
          the risk of identity breaches.
       B. Interviewed personnel from Step III. C. and discussed the procedures used to ensure
          the safety of the undercover agent and others involved in the undercover operation.
       C. Interviewed representatives from CI and four other Federal law enforcement agencies
          and discussed the procedures and practices used to protect the safety and
          confidentiality of undercover agents.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CI’s policies, procedures, and practices
relating to undercover operations. We evaluated these controls by interviewing CI and
SB/SE Division staff, analyzing data related to undercover operations, and reviewing the
administrative undercover operation case files and imprest fund files for selected undercover
operations.


                                                                                          Page 15
              Criminal Investigation Can Take Steps to Strengthen Oversight of
                                  Its Undercover Operations



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank W. Jones, Director
Doris J. Hynes, Audit Manager
Jeff K. Jones, Lead Auditor
Paul R. Baker, Senior Auditor
Carol C. Gerkens, Senior Auditor
Shalin R. Basnayake, Auditor
Charles S. Nall, Auditor




                                                                                      Page 16
             Criminal Investigation Can Take Steps to Strengthen Oversight of
                                 Its Undercover Operations



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Chief, Criminal Investigation SE:CI
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Director, Special Investigative Techniques, Criminal Investigation SE:CI:OPS:SIT
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation SE:CI:S:PS
       Chief, GAO/TIGTA/Legislative Implementation, Small Business/Self-Employed
       Division SE:S:CLD:PSP:GTL




                                                                                   Page 17
               Criminal Investigation Can Take Steps to Strengthen Oversight of
                                   Its Undercover Operations



                                                                                  Appendix IV

                                Glossary of Terms

Administrative Case Files – Files maintained by the Office of Special Investigative Techniques
for each undercover operation containing the request(s) for approval, preoperational meeting
documentation, operational and financial reviews, and closing report.
Assistant United States Attorneys – As attorneys for the Federal Government, Assistant United
States Attorneys are responsible to the United States Attorney for the performance of duties
assigned by that official. The United States Attorney serves as the chief law enforcement officer
in each judicial district and is responsible for coordinating multiple agency investigations within
that district.
Case Agent – Special agent who conducts the overall criminal investigation associated with the
undercover operation.
Churning Income – Income earned during an undercover operation. The IRS has the authority
to use income earned from undercover operations to offset necessary and reasonable expenses
incurred pursuant to the undercover activities.
Confidential Expenditures – Costs and expenses associated with conducting an undercover
operation. Advances for these expenditures are obtained from the imprest fund cashier.
Cover Agent – Special agent who serves as the direct link to the undercover agent and is the
individual primarily responsible for the safety of the undercover agent.
Field Office – Offices within the four CI geographical areas throughout the country with
boundaries that range from a portion of a single State to multi-State areas.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Grand Jury – A grand jury is established to hear testimony to determine whether there is
probable cause to believe the person to be indicted committed the crime in question. The grand
jury adheres to the strictest of secrecy, and violators are subject to severe penalties.
Imprest Fund – An imprest fund represents cash advanced to a duly authorized cashier and is
charged against a Government appropriation account.
Internal Revenue Code – Federal tax law begins with the I.R.C., enacted by Congress in
Title 26 of the United States Code. It is the main body of domestic statutory tax law of the


                                                                                           Page 18
               Criminal Investigation Can Take Steps to Strengthen Oversight of
                                   Its Undercover Operations



United States organized topically, including laws covering the income tax, payroll taxes, gift
taxes, estate taxes, and statutory excise taxes. Its implementing agency is the IRS.
Operational Review – A review to ensure that the undercover operation is being conducted in
compliance with the stated objectives, plan of action, and conditions as approved by the
Chief, CI.
Preoperational Meeting – At the initiation of the undercover operation, the long- and short-term
objectives of the undercover operation are reviewed and the operational plan is discussed.
Participants are to openly discuss their concerns, and conflicts must be resolved.
Recoverable Funds – Advances of funds which are issued for use in an undercover operation
that are expected to be returned in full when the investigation is completed; e.g., funds which are
to be laundered through a bank.
Review and Program Evaluation – Independent review conducted by CI’s Office of Strategy
and field personnel to assess CI operations and managerial effectiveness. It ensures alignment
with CI’s Compliance Strategy and IRS internal standards.
Special Agent – A law enforcement employee who investigates potential criminal violations of
the tax laws and related financial crimes.
Special Agent in Charge – A law enforcement employee responsible for directing, monitoring,
and coordinating the criminal investigation activities within a field office’s area of responsibility.
Supervisory Special Agent – A supervisory law enforcement employee who oversees the
overall criminal investigation, including the undercover operation.
Undercover Agent – A special agent who assumes a covert identity or purpose who takes action
to gain evidence or information which would be unavailable but for the target’s reliance on the
undercover agent’s covert role.
Undercover Program Manager – Operating out of the Office of Special Investigative
Techniques and assigned to a geographic area, an Undercover Program Manager is responsible
for 1) providing advice to the Director, Field Operations, for all special investigative techniques
for which the Director, Field Operations, has approval authority, 2) maintaining administrative
control of undercover agents assigned to the area, 3) monitoring and providing support and
assistance to all undercover operations in their assigned areas, 4) participating in preoperational
meetings prior to the initiation of the undercover operation and post-operational meetings at the
conclusion of the undercover operation, and 5) conducting reviews of undercover operations
within the area.




                                                                                             Page 19
                  Criminal Investigation Can Take Steps to Strengthen Oversight of
                                      Its Undercover Operations



                                                                                                   Appendix V

          Management’s Response to the Draft Report
                                          DEPARTMENT OF THE TREASURY
                                           INTERNAL REVENUE SERVICE
                                             WASHINGTON, D.C. 20224

CRIMINAL INVESTIGATION



                                                  January 13, 2012


MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDIT

FROM:                for Rick A. Raven /s/ Patricia J. Haynes
                         Acting Chief, Criminal Investigation (SE:CI)

SUBJECT:                 Response to Draft Audit Report - Criminal Investigation Can Take Steps to Strengthen
                         Oversight of Its Undercover Operations (Audit #201030037)

Criminal Investigation’s (CI) primary mission is to serve the American public by investigating potential criminal
violations of the Internal Revenue Code (I.R.C.) and related financial crimes in a manner that fosters confidence in
the tax system and compliance with the law. To accomplish its mission, CI uses undercover operations as an
essential technique in the detection and investigation of criminal activity involving tax and money laundering
offenses.

Criminal Investigations - Office of Special Investigative Techniques (SIT) has oversight responsibility for the
approval and execution of all undercover operations. This responsibility includes recommending corrective actions
to CI officials to address areas for improvement. During Fiscal Years (FY) 2008 through 2010, CI closed ***2(f)***
undercover operations that expended ***2(f)***** in confidential expenditures.

The overall objective of your review was to determine if CI has effective policies and procedures to ensure
undercover operations are properly monitored, expenses are appropriate, and any income earned is properly
controlled. In addition, your review evaluated the practices used to protect the safety of special agents working on
undercover operations.

Your report recognizes that other Federal law enforcement agencies respect CI’s undercover program because of the
financial expertise CI special agents bring to a joint investigation. Your report also found that CI’s undercover
practices are more thorough in some aspects than other Federal agencies.

During this past year, SIT has worked to enhance CI’s Undercover Program while proactively responding to
emerging income tax related and money laundering trends. I want to assure you that CI will continue to strengthen
and improve what your report recognizes as an Undercover Program that is respected in the law enforcement
community.


                                                                                                             Page 20
                  Criminal Investigation Can Take Steps to Strengthen Oversight of
                                      Its Undercover Operations



Our comments on the specific recommendations in this report are as follows:

IDENTITY OF RECOMMENDATION #1
Modify existing Internal Revenue Manual (IRM) and Law Enforcement Manual (LEM) procedures to include
specific criteria stating when operational and financial reviews are not required to be performed. Also, define a
specific starting point for the 90-calendar-day period when operational and financial reviews are first required to be
conducted, e.g., 90 calendar days after the preoperational meeting.

CORRECTIVE ACTION
We agree with this recommendation. Special Investigative Techniques will modify the existing IRM Section
9.4.8.11 to include a specific starting date for the ninety (90) calendar day period when operational and financial
reviews are first required to be conducted.

IMPLEMENTATION DATE
September 15, 2012

RESPONSIBLE OFFICIAL
Director, Operations, Policy and Support, Criminal Investigation

CORRECTIVE ACTION (S) MONITORING PLAN
The IRS will monitor this corrective action as part of our internal management system of controls.

IDENTITY OF RECOMMENDATION #2
Develop a monitoring process to ensure the Undercover Program Manager, cover agent, and Supervisory Special
Agent are alerted and timely complete all required operational and financial reviews.

CORRECTIVE ACTION
We agree with this recommendation. Special Investigative Techniques will develop an internal monitoring process
to ensure the Undercover Program Manager, Cover Agent, and Supervisory Special Agent are alerted and timely
complete all required operational and financial reviews. This monitoring process will utilize the new SIT-Criminal
Investigation Management Information System (CIMIS) report INV-053. The report INV-053, called SIT-Listing,
will indicate the due dates of reports and will be used by Headquarters (HQ) personnel to alert the appropriate field
personnel to timely complete all required operational and financial reviews.

IMPLEMENTATION DATE
July 15, 2012

RESPONSIBLE OFFICIAL
Director, Operations, Policy and Support, Criminal Investigation




                                                                                                             Page 21
                  Criminal Investigation Can Take Steps to Strengthen Oversight of
                                      Its Undercover Operations



CORRECTIVE ACTION MONITORING PLAN
The IRS will monitor this corrective action as part of our internal management system of controls.

IDENTITY OF RECOMMENDATION #3
Strengthen controls to ensure all undercover expenditures are properly and timely approved and documented. This
includes ensuring that the purchase of personal items are properly accounted for and controlled in CI inventory and
that any extraordinary travel expenses are preapproved and documented.

CORRECTIVE ACTION (S)
We agree with this recommendation. However, we believe the controls are already in place and included in our
established Pre-Operational Meeting check list and IRM sections 9.4.8 and 9.11.1. The checklist and IRM sections
specifically address the requirements that are to be followed if the purchase of personal items is necessary, and how
these items are to be properly accounted for and controlled in CI inventory. The checklist also specifies how any
extraordinary travel expenses are to be preapproved and documented. The Director, Operations, Policy and Support
will issue a memorandum to all Special Agents in Charge and Undercover Program Managers reemphasizing the
importance of following the established procedures and checklists.

IMPLEMENTATION DATE
July 15, 2012

RESPONSIBLE OFFICIAL
Director, Operations, Policy and Support, Criminal Investigation

CORRECTIVE ACTION (S) MONITORING PLAN
The IRS will monitor this corrective action as part of our internal management system of controls.

IDENTITY OF RECOMMENDATION #4
To address previously identified control weaknesses, the Chief, CI, should emphasize procedures to ensure special
agents take the necessary steps to reduce the risk of their undercover identity being breached. This includes ensuring
deviations from LEM procedures are approved and documented in undercover operation case files.

CORRECTIVE ACTION
We agree with this recommendation. An appropriate memorandum will be prepared for the field clarifying and
emphasizing IRM and LEM requirements. Additionally, the Pre-Operational Meeting check list will be changed and
clarified to emphasize procedures to ensure special agents take the necessary steps to reduce the risk of their
undercover identity being breached.

IMPLEMENTATION DATE
July 15, 2012




                                                                                                            Page 22
                 Criminal Investigation Can Take Steps to Strengthen Oversight of
                                     Its Undercover Operations



RESPONSIBLE OFFICIAL
Director, Operations, Policy and Support, Criminal Investigation

CORRECTIVE ACTION (S) MONITORING PLAN
The IRS will monitor this corrective action as part of our internal management system of controls.

IDENTITY OF RECOMMENDATION #5
The Chief, CI, should strengthen controls to ensure the financial review of undercover operations with churning
authority are requested within 90 calendar days after the undercover operation portion of the investigation is
concluded.

CORRECTIVE ACTION
We agree with this recommendation. Special Investigative Techniques will develop an internal monitoring process
to ensure the financial review of undercover operations with churning authority are requested within 90 calendar
days after the undercover operation portion of the investigation is concluded. Headquarters, IRS-CI personnel, will
alert the appropriate field personnel to timely complete the financial review of undercover operations with churning
authority.

IMPLEMENTATION DATE
July 15, 2012

RESPONSIBLE OFFICIAL
Director, Operations, Policy and Support, Criminal Investigation

CORRECTIVE ACTION (S) MONITORING PLAN
The IRS will monitor this corrective action as part of our internal management system of controls.




                                                                                                           Page 23
